TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Additional Security Is Needed for the
                        Taxpayer Secure Email Program



                                        February 4, 2011

                             Reference Number: 2011-20-012




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

   Redaction Legend:
   1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                HIGHLIGHTS


ADDITIONAL SECURITY IS NEEDED FOR                   encrypting their emails that contain SBU data.
THE TAXPAYER SECURE EMAIL                           These violations of the program were not
PROGRAM                                             reported to IRS management. Furthermore, IRS
                                                    procedures and training lacks adequate
                                                    guidance for employees to report the violations.
Highlights                                          In addition, the IRS does not timely correct
                                                    persistent medium-risk security vulnerabilities
Final Report issued on February 4, 2011             detected on email servers.
                                                    WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2011-20-012
to the Internal Revenue Service Chief               TIGTA recommended that the Large Business
Technology Officer; Commissioner for Large          and International Division and Office of Appeals
Business and International Division; Chief of the   coordinate with the Office of Privacy, Information
Office of Appeals; and Director of the Office of    Protection, and Data Security to develop
Privacy, Information Protection and Data            additional procedures for employees
Security.                                           participating in the Secure Email With Taxpayers
                                                    program to address how, when, and to whom
IMPACT ON TAXPAYERS                                 employee and taxpayer secure email violations
                                                    should be reported; update guides and training
Internal Revenue Service (IRS) employees and
                                                    materials to include these procedures; amend
taxpayers are required to work together to
                                                    the Memorandum of Understanding to apprise
ensure the security of taxpayers’ sensitive data
                                                    the taxpayer of the specific risks associated with
transmitted in email messages. If employees
                                                    transmitting unencrypted email with SBU data;
and taxpayers do not follow the required security
                                                    and issue a memorandum to all employees
policies, the risks to taxpayers’ sensitive data
                                                    advising them of the disciplinary actions that will
are increased. The data could be intercepted
                                                    be taken against employees who violate IRS
and accessed by unauthorized individuals or
                                                    email policies by sending unencrypted emails to
inadvertently sent to the wrong recipient.
                                                    taxpayers who have not signed a Memorandum
WHY TIGTA DID THE AUDIT                             of Understanding to participate in the program.

This audit was initiated because the IRS relaxed    TIGTA also recommended that the Associate
its long-standing internal policy prohibiting       Chief Information Officer, Cybersecurity,
employees from transmitting Sensitive But           ensure data leakage prevention software is
Unclassified (SBU) data to taxpayers in emails.     implemented by April 2012, and update the
The objective of the review was to determine        annual Information Systems Security briefing to
whether IRS controls, policies, and procedures      include the new Secure Email With Taxpayers
for sensitive email messages to taxpayers           procedures. Lastly, TIGTA recommended the
adequately protected taxpayers’ data, guarded       Associate Chief Information Officer, Enterprise
against email threats to the IRS network, and       Operations, ensure medium-risk vulnerabilities
ensured email practices were compliant with         detected on email servers are appropriately
Federal regulations.                                tracked and, if the vulnerabilities cannot be
                                                    corrected within two months, follow security
WHAT TIGTA FOUND                                    requirements to post the vulnerabilities to the
                                                    appropriate Plan of Actions and Milestones.
Although some controls for the Secure Email
With Taxpayers program are in place, such as        In their response to the report, IRS officials
the installation of antivirus software on           agreed with six of the recommendations and
employees’ computers, other security controls       partially agreed with three. For the three
were not implemented. The IRS has not               partially agreed recommendations, TIGTA
implemented an automated control to detect and      continues to believe that the IRS should fully
prevent SBU data in unencrypted emails from         implement the recommendations.
being transmitted outside the IRS. In addition,
some employees and taxpayers are not
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           February 4, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION
                CHIEF, OFFICE OF APPEALS
                DIRECTOR, OFFICE OF PRIVACY, INFORMATION
                PROTECTION AND DATA SECURITY

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Security Is Needed for the Taxpayer
                             Secure Email Program (Audit # 201020021)

 This report presents the results of our review to determine whether Internal Revenue Service
 (IRS) controls, policies, and procedures for sensitive email messages to taxpayers adequately
 protected taxpayers’ data, guarded against email threats to the IRS network, and ensured email
 practices were compliant with Federal regulations. This audit was included in the Treasury
 Inspector General for Tax Administration Fiscal Year 2010 Annual Audit Plan and was part of
 our statutory requirement to annually review the adequacy and security of IRS technology.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan R.
 Duncan, Assistant Inspector General for Audit (Security and Information Technology Services),
 at (202) 622-5894.
                                                 Additional Security Is Needed
                                           for the Taxpayer Secure Email Program




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Some Controls Have Been Implemented to Mitigate the
          Risks of the Secure Email With Taxpayers Program.................................... Page 3
          An Automated Control to Detect Sensitive But Unclassified
          Data in Unencrypted Emails Transmitted Outside the
          Internal Revenue Service Has Not Been Implemented................................. Page 4
                    Recommendation 1:........................................................ Page 5

          Additional Procedures and Training to Protect Taxpayers’
          Sensitive Data Transmitted in Emails Should Be Developed
          and Implemented ........................................................................................... Page 5
                    Recommendations 2 and 3: .............................................. Page 8

                    Recommendations 4 and 5: .............................................. Page 9

                    Recommendations 6 and 7: ....................................................... Page 10

          Medium-Risk Vulnerabilities on Email Servers Are Not
          Timely Corrected .......................................................................................... Page 10
                    Recommendation 8:........................................................ Page 12

          Some Unauthorized Employees Are Sending and Receiving
          Sensitive Data in Emails ............................................................................... Page 12
                    Recommendation 9:........................................................ Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Management’s Response to the Draft Report ...................... Page 21
               Additional Security Is Needed
         for the Taxpayer Secure Email Program




             Abbreviations

EOPS   Enterprise Operations
IRS    Internal Revenue Service
LB&I   Large Business and International Division
MOU    Memorandum of Understanding
NIST   National Institute for Standards and Technology
SBU    Sensitive But Unclassified
                                          Additional Security Is Needed
                                    for the Taxpayer Secure Email Program




                                            Background

Electronic mail (email) presents one of the highest security risks to an organization’s sensitive
data and computer network. For example, most computer viruses are spread through email
attachments and emails with links to malicious web sites. Computer viruses can destroy data on
computers, disrupt computer operations, and degrade network performance. In addition,
sensitive data transmitted in emails could be intercepted by unauthorized individuals or
inadvertently sent to the wrong recipient.
The Internal Revenue Service (IRS) relies on email to communicate within the organization.
Most managers and employees have access to email and can send sensitive data to other
employees using the Secure Enterprise Messaging System.1 The most common type of sensitive
information processed by the IRS is Sensitive But Unclassified (SBU) information, which
includes taxpayers’ tax and financial data as well as Personally Identifiable Information.
To protect taxpayers’ sensitive data transmitted in email messages, IRS procedures require the
email system provide appropriate security to the network where the system resides and to the
data stored and transmitted by the email system in accordance with the standards and guidelines
developed by the National Institute for Standards and Technology (NIST).2 The NIST
recommends agencies implement automated tools, such as a network data leakage prevention
tool, to monitor transfers of Personally Identifiable Information, and to monitor inbound and
outbound communications for unauthorized activities.
Prior to November 2007, the IRS maintained a long-standing policy that prohibited sending SBU
data in emails to taxpayers or a taxpayer’s representative, such as a Power of Attorney. IRS
procedures directed employees to not send SBU data by email to parties outside of the IRS or the
Department of the Treasury, even if the other party uses encryption software. The IRS cited the
risks to taxpayers’ privacy as the reason for its policy.
The IRS relaxed its email policy in November 2007 when its Security Services and Privacy
Executive Steering Committee approved the Large Business and International (LB&I) Division
to begin a Secure Email With Taxpayers pilot. This pilot began with 12 volunteer corporate
taxpayers and ended in September 2008 with 35 corporate taxpayers.
In October 2008, the Security Services and Privacy Executive Steering Committee approved the
LB&I Division’s request to incorporate the Secure Email With Taxpayers pilot in its standard


1
  The Secure Enterprise Messaging System allows users to digitally encrypt email messages and attachments that
contain Sensitive But Unclassified data.
2
  NIST Special Publication 800-45, Guidelines on Electronic Mail Security, February 2007, and
NIST 800-122, Guide to Protecting the Confidentiality of Personally Identifiable Information, April 2010.
                                                                                                         Page 1
                                      Additional Security Is Needed
                                for the Taxpayer Secure Email Program



operating procedures. During our review, over 200 taxpayers were enrolled in the LB&I
Division’s Secure Email With Taxpayers program.
In February 2009, the IRS changed its official internal policy on transmitting SBU data by email
to taxpayers. The policy was revised as follows:
       “IRS employees may never send SBU data by electronic mail to taxpayers or their
       representatives unless they are using a technology and methodology that has been
       approved by the Security Services and Privacy Executive Steering Committee and the
       Senior Executive Team.”
The Security Services and Privacy Executive Steering Committee also approved the IRS Office
of Appeals to begin a Secure Email With Taxpayers pilot in June 2009. The pilot is limited to
only the employees in the Appeals Team Case Leader groups that process large dollar taxpayer
cases routed from the LB&I Division. The Office of Appeals employees and the employees in
the LB&I Division usually communicate with the same taxpayers. The technology, processes,
and procedures for the Office of Appeals pilot emulate what was developed and implemented by
the LB&I Division.
The Security Services and Privacy Executive Steering Committee has no plans to allow other
IRS business units to transmit emails with SBU data to taxpayers and emphasized the Office of
Appeals’ participation is still in the pilot phase. In addition, the Committee considers the Secure
Email With Taxpayers program to be a “limited” program because only the LB&I Division and
the Office of Appeals are authorized to participate and, within these business units, only some
employees are authorized to participate. In this report, we use Secure Email With Taxpayers
program to refer to the LB&I Division’s program and the Office of Appeals’ pilot.
We focused this review on the technical and manual controls that the IRS implemented to protect
taxpayers’ data, guard against email threats to the IRS computer network, and ensure email
practices are compliant with Federal regulations and IRS policies. This review was performed at
the offices of the LB&I Division and the Office of Appeals in Washington, D.C., and Dallas,
Texas, and at the Modernization and Information Technology Services organization’s Office of
Cybersecurity, Computer Security Incident Response Center, End User Equipment and Services
office, and Enterprise Operations office in New Carrollton, Maryland. We also performed work
in the Enterprise Operations office in Austin, Texas. We performed this review during the
period January through July 2010. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.


                                                                                            Page 2
                                      Additional Security Is Needed
                                for the Taxpayer Secure Email Program




                                 Results of Review

Some Controls Have Been Implemented to Mitigate the Risks of the
Secure Email With Taxpayers Program
The Secure Email With Taxpayer program represents a departure from the traditional means of
communicating with taxpayers, such as regular mail and telephone contact. With advances in
supporting technologies and the increased use of email by taxpayers to conduct business, we
acknowledge this program will enhance customer service with taxpayers and provide a more
expedient and efficient way to trade information. During our review, over 200 corporate
taxpayers were enrolled in the LB&I Division’s Secure Email With Taxpayers program.
In order to participate in the Secure Email With Taxpayers program, the IRS requires taxpayers
to sign a Memorandum of Understanding (MOU) agreeing to work together to ensure the joint
security of the data transmitted in emails. The MOU is an important control that has been
implemented for the Secure Email With Taxpayers program because it sets up the parameters for
the program as well as the responsibilities for both parties. For example, the MOU states,
   “It is the intention of both parties to this MOU that encrypted emails be used for the
   transmission of sensitive or confidential tax-related information…”
Encryption provides the technological protection of the email and all data files attached to the
emails while being transmitted by either party. The taxpayer is required to have a compatible
secure email system with encryption capability to participate in the program.
Another important aspect of the MOU is the identification of authorized individuals allowed to
send and receive emails under this program. The specific names of IRS employees authorized to
send and receive emails are required to be listed in an attachment to the MOU. Once the MOU is
signed by both parties, only listed individuals are authorized to participate in the Secure Email
With Taxpayers program. Allowing only the specific individuals to send and receive emails
ensures that the confidentiality of data are maintained, especially since some taxpayers
participating in this program are large and mid-sized businesses and are being represented by
attorneys, accountants, and administrative personnel. In addition, the IRS has effective controls
to remove employees’ email accounts from the email system when an employee separates from
the IRS.
We also found that the LB&I Division and Office of Appeals provided guides on secure
communication to their employees with instructions on how to exchange digital signature
certificates between the IRS and taxpayers’ email systems. These step-by-step guides explain
how to securely communicate using email and caution employees not to type sensitive

                                                                                            Page 3
                                      Additional Security Is Needed
                                for the Taxpayer Secure Email Program



information in the subject line of the email or in the name of a file attachment because these parts
are not encrypted.
Lastly, we found that antivirus software is installed and operating properly on 98 percent of the
IRS’s computer workstations. This security software was installed long before the Secure Email
With Taxpayers program was initiated and is critical because the workstation is the last line of
defense in detecting and removing viruses.
Although the IRS implemented some controls, additional actions are needed to protect taxpayers’
sensitive data and the IRS computer network.

An Automated Control to Detect Sensitive But Unclassified Data in
Unencrypted Emails Transmitted Outside the Internal Revenue
Service Has Not Been Implemented
As previously stated in this report, the IRS must implement automated controls, such as a data
leakage prevention tool, to detect and prevent SBU data from inappropriately leaking from the
IRS, including sensitive data transmitted in emails.
The IRS is currently acquiring an enterprise data leakage prevention system. This key control
was not implemented prior to approving the LB&I Division’s Secure Email With Taxpayers pilot
because the IRS, along with the Department of the Treasury, determined the data loss prevention
solutions in the marketplace at that time were not mature or robust enough to address the IRS’s
needs. The Co-Chairman of the Security Services and Privacy Executive Steering Committee
also cited the following reasons for approving the program without a data loss prevention system
in place.
   •   The MOU signed by the taxpayer affords a sufficient level of protection. The taxpayer
       accepts the risks when signing the MOU.
   •   The taxpayers involved in the Secure Email With Taxpayers program are business
       professionals and have email systems capable of encrypting the emails.
The IRS now believes the enterprise-level data leakage prevention solutions currently available
for purchase have the capability of working with security software already in place and can
handle the large amount of electronic information generated by a large organization. The IRS is
in the early stages of the acquisition and expects to have a data leakage prevention control fully
implemented by April 2012, which would be 4 years after the LB&I Division Secure Email With
Taxpayers pilot was approved.
Without an automated control to identify and prevent unencrypted emails with sensitive data
from leaving the IRS, sensitive data could be exposed to unauthorized access and disclosure.
Until the data leakage prevention solution is fully implemented, the IRS must rely solely on the
effectiveness of manual controls. For example, the IRS must have effective procedures and

                                                                                             Page 4
                                           Additional Security Is Needed
                                     for the Taxpayer Secure Email Program



training to ensure employees follow the security policies and report violations of the program to
ensure sensitive data are adequately protected.

Recommendation
Recommendation 1: The Associate Chief Information Officer, Cybersecurity, should
continue with the acquisition of a data leakage prevention system to ensure full deployment by
April 2012. This data leakage prevention system should include the ability to identify and stop
unencrypted emails containing sensitive data, such as Social Security Numbers, from leaving the
IRS domain.
        Management’s Response: The IRS agreed with this recommendation. The IRS
        stated that it would deploy a data leakage prevention solution through the Safeguarding
        Personally Identifiable Information Data Extracts project. The Safeguarding Personally
        Identifiable Information Data Extracts project will implement Data-In-Motion
        components to address this issue. In addition, the project will also coordinate the
        deployment of Incident Response workflows with respective organizations including the
        Office of Privacy, Information Protection and Data Security. The final scope for policy,
        rules, and corrective actions will be determined with input from the Treasury Inspector
        General for Tax Administration and other stakeholders. The IRS set an implementation
        date of July 1, 2012.

Additional Procedures and Training to Protect Taxpayers’ Sensitive
Data Transmitted in Emails Should Be Developed and Implemented
The Department of the Treasury3 requires its bureaus to develop formal, documented procedures
to monitor and control email. These manual procedures are needed to mitigate the security risks
of the Secure Email With Taxpayers program and are critical in light of the previous finding.
The IRS must develop and implement procedures and training for employees to identify and
report violations of the program. Examples of Secure Email violations include employees,
taxpayers, or taxpayers’ representatives transmitting unencrypted emails with SBU data or
unauthorized employees or taxpayers participating in the program. As previously stated, the
requirement for the taxpayer and the IRS to sign an MOU is one of the most significant manual
controls established to date.
To evaluate program compliance, we selected 97 of the 582 program employees and reviewed
emails that were sent or received. We found some employees authorized4 to participate in the


3
  Treasury Directive Publication 85-01, Treasury Information Technology Security Program, November 3, 2006.
4
  Employees are authorized to participate in this program when the employee’s name is listed on an attachment to
the MOU and the MOU is signed by the taxpayer.
                                                                                                           Page 5
                                     Additional Security Is Needed
                               for the Taxpayer Secure Email Program



Secure Email With Taxpayers program were not encrypting some of their emails that contained
SBU data.
   •   Nine (9 percent) of the 97 authorized employees sent a total of 20 unencrypted emails
       containing SBU data to 9 taxpayers. An MOU was not in place for three of the
       taxpayers, which indicates the employee was not authorized to send SBU data to these
       taxpayers.
       **********************************1**********************************
       **********************************************************************
       ***********************************************************************
       **************************************************************.
We also found employees authorized to participate in the Secure Email With Taxpayers program
were receiving unencrypted emails that contained SBU data.
   •   Thirty-five (36 percent) of the 97 authorized employees received 128 unencrypted emails
       with SBU data from 38 taxpayers. An MOU had not been executed for 14 of these
       taxpayers, indicating the employee was not authorized to receive SBU emails from these
       taxpayers.
       ********************************1*************************************
       *********************************************************************
       ********************************************************************
       We did not contact the taxpayers to determine why they did not encrypt their emails or
       sign an MOU with the IRS. However, officials in the LB&I Division and the Office of
       Appeals informed us that some taxpayers and their representatives have been sending
       SBU data in emails long before the Secure Email With Taxpayers program started. The
       IRS officials also stated they were unaware of procedures requiring them to stop or report
       taxpayers who send emails with SBU data to IRS employees.
These violations of the program were not reported to the LB&I Division or the Office of Appeals
Team Managers or Team Coordinators or to the Modernization and Information Technology
Services organization’s Computer Security Incident Response Center. Furthermore, none of the
22 LB&I Division or Office of Appeals Team Managers or Team Coordinators that we
interviewed were aware of any reported violations of the Secure Email With Taxpayers program.
These IRS officials informed us they did not receive procedures requiring them to report secure
email violations of the type we found in our review.
Other IRS officials in the National Headquarters Office informed us that the IRS is not
responsible for reporting or stopping taxpayers from sending unencrypted SBU data in emails.
They believe the IRS is responsible only after receiving the data, and that taxpayers are fully
aware of the risks because, while not explicit in the MOU, the risks are discussed with each
taxpayer prior to signing the MOU. However, we disagree with this rationale. If taxpayers’

                                                                                           Page 6
                                     Additional Security Is Needed
                               for the Taxpayer Secure Email Program



sensitive data are lost or stolen as a result of the Secure Email With Taxpayers program, we
believe the brunt of the criticism and negative publicity would be directed at the IRS. Second,
and more importantly, of the above 38 taxpayers that sent unencrypted email to IRS employees,
8 (21 percent) were not the actual taxpayer; they were the taxpayers’ representative such as a
Power of Attorney or Public Accountant. In these instances, the taxpayers are most likely
unaware their sensitive data were transmitted insecurely. The IRS should take all reasonable
actions to ensure the taxpayers’ data are protected, including responding to an unencrypted email
with SBU data reminding the taxpayer to encrypt the email and requesting that taxpayers who
receive unencrypted emails with SBU data from IRS employees report this violation to a
designated IRS official. These actions would provide accountability for program compliance
and ensure the security of the program is maintained.
The IRS’s internal procedures, guides, and training briefings do not provide adequate guidance
or instructions to employees to report violations of unencrypted emails with SBU data from
employees or taxpayers. We found the procedures require employees to report inadvertent
disclosures of sensitive information to the Computer Security Incident Response Center using
that office’s online Security Incident Reporting form. However, the form instructs employees to
report emails sent to the wrong party. None of the above email violations that we found were
sent to the wrong party. Furthermore, the Security Incident Reporting form instructs employees
to use the Wage and Investment Division’s Erroneous Taxpayer Correspondence Reporting form
to report emails sent to the wrong party, as does the Office of Privacy, Information Protection
and Data Security web site. The Erroneous Taxpayer Correspondence Reporting form does not
include a category for unencrypted emails with SBU data sent to or received from taxpayers.
We also found the LB&I Division’s Secure Communications With Taxpayers guide and Office
of Appeals Secure Email Messaging training presentation lack specific procedures for employees
to report violations of the Secure Email With Taxpayers
program. Lastly, the IRS’s two mandatory annual
briefings on information security are required for all       Although we did not find evidence
employees and are prepared by the Office of Privacy,            of unencrypted emails being
                                                              intercepted or instances where
Information Protection and Data Security and by the            emails were sent to the wrong
Office of Cybersecurity. However, the Information            recipient, the risk of unauthorized
Protection and Disclosure briefing prepared by the Office       disclosure is increased when
of Privacy provides general guidance and penalties for        employees do not report secure
failing to protect sensitive data, but this briefing and the    email violations or adhere to
                                                                   the MOU requirements.
Office of Cybersecurity’s Information System Security
briefing do not include procedures for reporting violations
of the Secure Email With Taxpayers program.
We did not find evidence of unencrypted emails being intercepted by unauthorized individuals,
nor were our tests designed to uncover this type of illegal activity. However, the risks to
taxpayers’ sensitive data are increased when employees do not report secure email violations and

                                                                                          Page 7
                                     Additional Security Is Needed
                               for the Taxpayer Secure Email Program



IRS management does not establish and reinforce clear procedures and training on secure email
policies.

Recommendations
Recommendation 2: The LB&I Division and the Office of Appeals should coordinate with
the Office of Privacy, Information Protection and Data Security to develop and enforce
additional procedures for employees participating in the Secure Email With Taxpayers program.
The procedures should address how, when, and to whom employee and taxpayer secure email
violations should be reported and that appropriate actions will be taken against employees who
do not encrypt sensitive email messages to taxpayers.
       Management’s Response: The IRS partially agreed with this recommendation. The
       LB&I Division will take the lead and coordinate with the Office of Privacy, Information
       Protection and Data Security to ensure the IRS’s policy on privacy and security
       incorporates the use of secure email with taxpayers. The LB&I Division will also ensure
       its web site is consistent with guidance set forth by the Office of Cybersecurity on secure
       email with taxpayers. In addition, the LB&I Division and the Office of Appeals will
       advise its employees participating in the Secure Email With Taxpayers program of their
       responsibilities on how, when, and to whom they should report secure email violations.
       Lastly, the Office of Appeals will update its web site to link to the appropriate IRS policy
       on privacy and security for the Secure Email With Taxpayers program.
       Within the IRS’s response transmittal, the IRS stated its disciplinary procedures are
       appropriate for addressing email violations without the need for further delineation in the
       Secure Email procedures.
       Office of Audit Comment: The IRS’s disciplinary procedures state the penalty for an
       employee who fails to maintain security for Personally Identifiable Information is
       admonishment up to a 14-day suspension. The penalty for a second offense is a 15-day
       suspension up to removal from the IRS. The penalty for the third offense is removal
       from the IRS. We believe these penalties should be delineated, or at least referenced, in
       the Secure Email procedures and would serve as a warning to employees who do not
       comply with encrypting email messages to taxpayers.
Recommendation 3: The LB&I Division and the Office of Appeals should update guides and
training materials to include the new reporting procedures.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that the Director, Business Systems Planning, LB&I Division, will update IRS
       training materials and guides to include all current and any new reporting procedures and
       policies relating to the Secure Email program. In addition, the Office of Appeals will
       update its web site to link to the approved IRS training materials and guides.

                                                                                            Page 8
                                    Additional Security Is Needed
                              for the Taxpayer Secure Email Program



Recommendation 4: The LB&I Division and the Office of Appeals should coordinate to
amend the MOU to apprise the taxpayer of the specific risks associated with transmitting
unencrypted emails with SBU data and provide specific actions that will be taken when
taxpayers or their representatives do not comply with the terms of the MOU. For example, the
IRS could potentially terminate the MOU if the taxpayer or taxpayer’s representatives repeatedly
fail to encrypt sensitive emails. These actions would provide accountability to taxpayers to
comply with the MOU.
       Management’s Response: The IRS partially agreed with this recommendation and
       stated that the Director, Business Systems Planning, LB&I Division, will modify the
       existing Secure Email With Taxpayers MOU template to make taxpayers fully aware of
       the security risks if they choose to send unencrypted email. In addition, the LB&I
       Division and the Office of Appeals will issue the modified MOU to all its participants in
       the Secure Email program. Within the IRS’s response transmittal, the IRS stated it will
       not amend the MOU to address taxpayers’ noncompliance with the MOU.
       Office of Audit Comment: We disagree with the IRS’s decision to not amend the
       MOU to address taxpayers’ noncompliance with the MOU. As stated in the report, many
       taxpayers are most likely unaware their sensitive information was transmitted insecurely
       because many of the violations we found were sent by the taxpayers’ representatives,
       such as a Power of Attorney or Public Accountant. The IRS should take all reasonable
       actions to protect the taxpayers’ sensitive data. These actions should include developing
       procedures and penalties to address taxpayers or taxpayer representatives who do not
       comply with the security terms of the MOU. The procedures and penalties should be
       explicitly stated in the MOU.
Recommendation 5: The Office of Privacy, Information Protection and Data Security should
take actions to update the IRS’s official internal procedures with the additional procedures
developed by the LB&I Division and the Office of Appeals and post the procedures to its internal
web site.
       Management’s Response: The IRS agreed with the recommendation and stated that
       the corrective actions have already been completed. The IRS stated that in August 2010,
       the Office of Privacy, Information Protection and Data Security updated its internal web
       site to reflect current IRS guidance and procedures for sending email containing
       Personally Identifiable Information within the IRS as well as to authorized non-IRS
       parties. The IRS also stated that its current guidance indicates the only approved process
       for sending secure email containing Personally Identifiable Information to taxpayers or
       their representatives is through the encryption solution utilized in the LB&I Division and
       the Office of Appeals Secure Email pilots, and only approved pilot participants could use
       this capability. The Office of Privacy, Information Protection and Data Security will
       continue to monitor the Secure Email pilots and programs and will update its internal web
       site, as appropriate, as new procedures are developed.

                                                                                          Page 9
                                    Additional Security Is Needed
                              for the Taxpayer Secure Email Program



       Office of Audit Comment: Although the IRS agreed with this recommendation, its
       corrective actions are not sufficient to address the recommendation. As stated in the
       report, the IRS’s current procedures in its Internal Revenue Manual do not provide
       adequate guidance to employees on reporting violations of unencrypted emails with SBU
       data. The lack of a data leakage prevention system until July 2012 makes these
       procedures more critical. The IRS’s Internal Revenue Manual is intended to provide the
       official procedures that employees are required to follow. These internal procedures
       should be updated with the additional procedures we recommended in
       Recommendation 2 above. The Internal Revenue Manual procedures should require the
       employees to report secure email violations and address how, when, and to whom
       employee and taxpayer secure email violations should be reported.
       We reviewed the update to the Office of Privacy’s web site that was completed in
       August 2010 and found the update does not include the additional procedures that we
       recommended the LB&I Division and the Office of Appeals develop. For example, the
       web site does not include new procedures regarding how, when, and to whom employee
       and taxpayer secure email violations should be reported.
Recommendation 6: The Office of Privacy, Information Protection and Data Security should
update the Annual Information Protection and Disclosure Briefing to include the new Secure
Email With Taxpayers procedures.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that the Office of Privacy, Information Protection and Data Security, will update
       the Annual Information Protection and Disclosure Briefing to indicate Secure Email With
       Taxpayers can occur only under agency/Modernization and Information Technology
       Services approved pilots and programs.
Recommendation 7: The Associate Chief Information Officer, Cybersecurity, should update
the mandatory annual Information Systems Security briefing to include or reference the new
Secure Email With Taxpayers procedures.
       Management’s Response: The IRS agreed with this recommendation. The
       Associate Chief Information Officer, Cybersecurity, will update the Information Systems
       Security supplemental briefing to include or reference the Secure Email With Taxpayers
       procedures. This supplemental briefing is a part of the mandatory security awareness
       training provided to all IRS employees annually.

Medium-Risk Vulnerabilities on Email Servers Are Not Timely
Corrected
The Modernization and Information Technology Services organization’s Enterprise Operations
office conducts monthly security assessments of its 70 email servers using the Windows Policy

                                                                                       Page 10
                                            Additional Security Is Needed
                                      for the Taxpayer Secure Email Program



Checker tool.5 The monthly assessments conducted from September 2009 through
February 2010 determined that each of the email servers failed between 73 and 79 medium-risk
security checks each month. The number of failed security checks on each server was the same
each month, indicating the same security vulnerabilities exist on the same servers each month
and are not being timely corrected. Examples of the vulnerabilities that were not addressed
include:
    •    The setting to prevent anonymous connections to the email server was not configured in
         compliance with IRS procedures. IRS procedures require the anonymous connection
         setting be configured to the default value “Null” to prevent the server from being
         accessed by any network user. This weakness could lead to exposure or corruption of
         sensitive corporate data.
    •    The settings to restrict access permissions to files, directories, and registry settings on the
         email servers were not configured to prevent unauthorized individuals from exploiting
         the email servers.
    •    The settings for passwords and audit logs were not configured to prevent or detect
         malicious activities. The audit logs were set to overwrite, and thereby delete, critical
         events that should be retained and reviewed in the logs. Registry settings for password
         length and expiration were incorrectly set for local user accounts on the email servers.
IRS policies require security weaknesses for medium-risk systems, such as the IRS’s email
system, be posted on a Plan of Actions and Milestones6 within 2 months of identification if the
weakness cannot be fixed within 60 days. This action ensures the weaknesses receive adequate
management oversight until corrected or until mitigating controls are implemented. However,
the persistent medium-risk weaknesses that the IRS detected on its email servers were not posted
to a Plan of Actions and Milestones because the IRS does not track these vulnerabilities to
identify recurring weaknesses from month to month.
The Enterprise Operations office attributed the recurring security vulnerabilities on the email
servers to system administrators focusing on other operational support responsibilities, including
the daily maintenance and backup of the email system. The Enterprise Operations office also
reported their office focused on correcting high-risk vulnerabilities, maintaining the IRS’s
enterprise email infrastructure, and planning the implementation of the IRS’s new Secure
Enterprise Messaging System. This focus diverted resources from correcting vulnerabilities
found on the current email servers.




5
 An automated tool used to determine whether systems are adhering to security policies.
6
 The purpose of a Plan of Actions and Milestones is to assist agencies in identifying, assessing, prioritizing, and
monitoring the progress of corrective efforts for security weaknesses found in programs and systems.
                                                                                                             Page 11
                                           Additional Security Is Needed
                                     for the Taxpayer Secure Email Program



Recommendation
Recommendation 8: To ensure persistent medium-risk vulnerabilities receive management
oversight and timely corrective actions, the Associate Chief Information Officer, Enterprise
Operations, should ensure the vulnerabilities detected on each email server during the monthly
security assessments are appropriately tracked. If persistent medium-risk vulnerabilities cannot
be corrected within 2 months, the Enterprise Operations office should follow IRS security
requirements to post the vulnerabilities to the appropriate Plan of Actions and Milestones.
         Management’s Response: The IRS agreed with this recommendation and stated that
         the Associate Chief Information Officer, Enterprise Operations, will initiate tracking and
         correction of medium-risk vulnerabilities. A process will be implemented to ensure all
         medium-risk vulnerabilities that cannot be corrected within 60 days and high-risk
         vulnerabilities that cannot be corrected within 30 days of detection will be documented
         within a Plan of Actions and Milestones.

Some Unauthorized Employees Are Sending and Receiving Sensitive
Data in Emails
As previously stated in this report, the MOU provides the management control that only
authorized employees, taxpayers, and taxpayers’ representatives are sending and receiving
emails under the Secure Email With Taxpayers program. To ensure this control’s effectiveness,
both the IRS and the taxpayer must be diligent in updating the list of authorized individuals who
may conduct business for both the IRS and the taxpayer. The confidentiality of sensitive data is
maintained when the email senders and recipients are known and authorized to send and receive
emails.
To determine whether only authorized individuals are participating in the Secure Email With
Taxpayers program, we selected a sample of 70 employees from the LB&I Division and the
Office of Appeals who have not been authorized to participate in the program7 and reviewed
their historical emails. We found some of these employees are sending and receiving
unencrypted emails to and from taxpayers or their representatives, most of whom are also not
authorized to participate in the program.
    •    Seven (10 percent) of the 70 unauthorized employees in our sample sent a total of
         21 unencrypted emails containing SBU data to 14 taxpayers. An MOU had not been
         executed for the 14 taxpayers.




7
  Employees are not authorized to participate in this program if there is no signed MOU on file or if the attachment
to the signed MOU does not list their names as participants of the program.
                                                                                                            Page 12
                                      Additional Security Is Needed
                                for the Taxpayer Secure Email Program



       As an example, we found one employee sent a total of eight unencrypted emails
       containing SBU data to four different taxpayers.
   •   Twenty-two (31 percent) of the 70 unauthorized employees received a total of
       104 unencrypted emails containing SBU data from 64 taxpayers. An MOU was not in
       place for 58 of these taxpayers.
       As examples, *************************1*********************************
       ************************************1*********************************
       **********************************1*************************** Another
       employee received a total of 19 unencrypted emails with SBU data from 5 different
       taxpayers.
The employees above were not included in any MOU and violated the IRS policy that prohibits
sending emails with SBU data unless participating in the Secure Email With Taxpayers program.
We believe that many of these employees knowingly disregarded the Secure Email With
Taxpayers program and do not fully understand the risk of unnecessarily exposing the release of
taxpayer data. Without a systemic monitoring solution to prevent unencrypted emails from
leaving the IRS (i.e., a data loss prevention solution cited in the previous finding), the IRS cannot
stop these types of emails from occurring other than by relying on employee compliance.
The credibility and purpose of the program are undermined when non-participating employees
send and receive unencrypted emails from taxpayers. The number of employees and taxpayers
sending and receiving SBU emails without signing an MOU indicates that the most significant
management control that the IRS has implemented is not effective at ensuring only authorized
individuals are sending SBU emails to taxpayers. When unauthorized employees send and
receive emails with SBU data to and from taxpayers, the risk of unauthorized disclosure of
taxpayer data is increased.

Recommendation
Recommendation 9: The LB&I Division and the Office of Appeals should issue a
memorandum to their employees reminding them of the Secure Email With Taxpayers policy
and the actions that will be taken against unauthorized employees who violate the policy by
sending or receiving emails with SBU data to or from taxpayers.
       Management’s Response: The IRS partially agreed with this recommendation. The
       IRS stated that the LB&I Division and the Office of Appeals will issue a memorandum or
       communication to all of their employees reminding them that only employees officially
       participating in the Secure Email program are permitted to transmit emails with SBU data
       to taxpayers. Within the IRS’s response transmittal, the IRS stated that it believes any
       appropriate actions against noncompliant employees will fall under the normal
       disciplinary procedures.

                                                                                            Page 13
                              Additional Security Is Needed
                        for the Taxpayer Secure Email Program



Office of Audit Comment: To ensure compliance with the Secure Email policy, we
believe the IRS should provide, or at least reference, the actions that will be taken against
unauthorized employees who transmit SBU emails to or from taxpayers. Explicitly
stating these penalties would serve as a warning to employees who have not been
approved to send or receive SBU data to or from taxpayers.




                                                                                     Page 14
                                         Additional Security Is Needed
                                   for the Taxpayer Secure Email Program



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether IRS controls, policies, and
procedures for sensitive email messages to taxpayers adequately protected taxpayers’ data,
guarded against email threats to the IRS network, and ensured email practices were compliant
with Federal regulations. To accomplish this objective, we:
I.      Determined whether IRS employees authorized and profiled to correspond with taxpayers
        using encrypted email are in fact encrypting the email messages to protect SBU data.
        A. Interviewed project leaders and managers in the LB&I Division and the Office of
           Appeals and reviewed training guidance and local procedures to determine how the
           Secure Email With Taxpayers program1 is administered and the level of oversight it
           receives.
        B. Determined whether disciplinary actions have been taken against IRS employees for
           violating the Secure Email With Taxpayers program policies by interviewing
           managers to determine if secure email violations have occurred and were reported and
           if appropriate disciplinary actions were taken. We also determined whether employee
           security awareness training includes reminders of disciplinary actions for email
           abuse.
        C. Determined the population of LB&I Division and Office of Appeals employees and
           taxpayers enrolled in the secure email program since the program began.
        D. Selected a random sample of 97 LB&I Division and Office of Appeals employees
           who were authorized to participate in the Secure Email With Taxpayers program and
           a random sample of 70 employees from the same offices who were not authorized.
           We then requested a download of the employees’ Outlook mailbox. On February 18,
           2010, we requested that 6 months of email activity, September 2009 through
           February 2010, be included in each mailbox for each employee. However, we did not
           receive all the historical emails that we requested for all employees in our samples.
           We received a disparate percentage of historical emails for 109 (60 percent) of the
           167 employees. For the remaining 58 employees, the IRS provided the employees’
           current mailbox as of February 2010, which was after we initiated our audit.


1
 The IRS refers to the Secure Email With Taxpayers program as a “limited” program because only LB&I Division
and Office of Appeals employees listed on a signed MOU are authorized to send and receive Sensitive But
Unclassified data in emails to and from taxpayers.
                                                                                                    Page 15
                          Additional Security Is Needed
                    for the Taxpayer Secure Email Program



The Modernization and Information Technology Services’ Enterprise Operations
(EOPS) office experienced technical challenges in retrieving and combining the
weekly backup tapes that contained the 6 months of emails we requested for our
sample. The EOPS office informed us at the start of the review that retrieving the
historical emails would be challenging. Because of these challenges, on
March 11, 2010, we reduced our scope from 6 to 3 months of historical emails, which
reduced the number of backup tapes from 24 to 12. On April 20, 2010, we reduced
our request again to only one backup tape for each of the previous 3 months. We also
agreed to perform the work to combine the weekly backup tapes into one file for each
employee, allowing the EOPS office to concentrate on retrieving the tapes. However,
the EOPS office continued to report that the labor-intensive process of retrieving the
weekly backup tapes along with other competing data requests was straining their
resources. On May 20, 2010, the EOPS office informed us our data request was
causing employees to cancel scheduled time-off, work weekends, and impacting its
other requests for data. On May 21, 2010, 88 days after our initial request, we asked
the EOPS office to discontinue its efforts.
Although we could not evaluate all of the emails that employees sent to and received
from taxpayers during the 6-month or 3-month period preceding our audit, we believe
the email activity the IRS provided was sufficient to determine some employees were
not encrypting some of their emails with SBU data.
Sampling Methodology
We compiled a list of all LB&I Division employees who were authorized to
participate nationwide. The total population was 567 employees. To mitigate the
IRS’s anticipated technical challenges in retrieving the mailboxes, we selected
participating employees in three LB&I Division offices, rather than a random sample
of employees from across the Nation. We selected all 82 of the participating
employees in the three largest offices, which were: Dallas, Texas (30 employees);
New York, New York (27 employees); and Houston, Texas (25 employees). We also
requested the mailboxes for all 15 Appeals employees authorized to participate
nationwide. This sampling methodology was sufficient to identify a control weakness
and prompt management to take corrective action.
We also selected 55 LB&I Division employees who were not authorized to participate
from the same offices. We selected 20 employees from the Dallas office, 15
employees from the Houston office, and 20 employees from the New York office.
Lastly, we selected 15 Office of Appeals employees, nationwide, who were not
authorized to send and receive SBU data in emails to taxpayers because they were not
listed on an MOU.



                                                                              Page 16
                                     Additional Security Is Needed
                               for the Taxpayer Secure Email Program



       E. Determined whether only authorized employees are using email to send and receive
          SBU data to and from taxpayers in compliance with IRS policies and procedures by
          reviewing unencrypted emails in the mailboxes.
       F. Evaluated the encryption used by the IRS to ensure compliance with Federal
          Information Processing Standard (FIPS Data Encryption Standard 46-3).
II.    Determined whether the IRS is retaining email correspondence in accordance with
       applicable Federal requirements and IRS procedures.
       A. Reviewed the IRS email retention policy and procedures to determine whether
          procedures include an approved recordkeeping system, electronic records are
          retrievable, and the encryption key is stored with the emails to allow decryption.
       B. Determined whether all offices reviewed are following the same policies and
          procedures and using the same email recordkeeping system.
III.   Determined whether the IRS has implemented adequate controls to ensure the email
       system is secure and malicious content is not delivered to IRS employees or taxpayers.
       A. Reviewed the Secure Enterprise Messaging System Security Plan and evaluated the
          security controls that have been implemented.
       B. Identified all email servers that process LB&I Division and Office of Appeals emails
          with taxpayers.
       C. Confirmed that the IRS is regularly conducting scans and vulnerability assessments
          on the email servers to ensure the email applications are configured securely.
       D. Determined whether the IRS is actively scanning incoming email for malicious
          content on the primary main servers before email is sent to the end users and is
          actively scanning outgoing mail for sensitive information leaving the IRS network by
          reviewing and evaluating the email policies and rules and interviewing key IRS
          officials. We also determined how often the rules are modified and whether the
          antivirus software is enabled and properly updated by reviewing security assessment
          reports that are run each week and presented to IRS executives. Lastly, we evaluated
          the process the IRS has implemented to handle “spam” and other bulk emails.
IV.    Determined whether the IRS is timely closing email accounts of employees participating
       in the Secure Email With Taxpayers program when the employees leave the IRS.
       A. Determined whether the IRS has implemented a process to ensure employees’ email
          accounts are closed when an employee participating in the Secure Email With
          Taxpayers program leaves the IRS by interviewing LB&I Division and Office of
          Appeals secure email project leaders.


                                                                                         Page 17
                            Additional Security Is Needed
                      for the Taxpayer Secure Email Program



B. Determined whether the email accounts of participating employees, who departed the
   IRS in the last 12 months, were properly deleted from the email system.




                                                                              Page 18
                                   Additional Security Is Needed
                             for the Taxpayer Secure Email Program



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Allen Gray, Audit Manager
Charles Ekunwe, Senior Auditor
George Franklin, Senior Auditor
Larry Reimer, Senior Auditor
Suzanne Westcott, Senior Auditor




                                                                                     Page 19
                                    Additional Security Is Needed
                              for the Taxpayer Secure Email Program



                                                                              Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Office, Enterprise Operations OS:CTO:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Chief, Office of Appeals AP
       Director, Office of Privacy, Information Protection and Data Security OS:P
       Director, Risk Management Division OS:CTO:SP:RM




                                                                                    Page 20
                 Additional Security Is Needed
           for the Taxpayer Secure Email Program



                                               Appendix IV

Management’s Response to the Draft Report




                                                    Page 21
      Additional Security Is Needed
for the Taxpayer Secure Email Program




                                        Page 22
      Additional Security Is Needed
for the Taxpayer Secure Email Program




                                        Page 23
      Additional Security Is Needed
for the Taxpayer Secure Email Program




                                        Page 24
      Additional Security Is Needed
for the Taxpayer Secure Email Program




                                        Page 25
      Additional Security Is Needed
for the Taxpayer Secure Email Program




                                        Page 26
      Additional Security Is Needed
for the Taxpayer Secure Email Program




                                        Page 27
      Additional Security Is Needed
for the Taxpayer Secure Email Program




                                        Page 28
